                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A04010004
                                                                                11          Page 1 of 1



          We learned that an NSF proposal' contained a copy of a memorandum2from the chair of a
          submitting institution's Grievance Committee (the Committee) that discussed the Committee's
          conclusions of data sharing issues related to the NSF proposal's co-PI and another faculty
          member who was not listed in the proposal. The memorandum did not contain any information
          relevant to the proposal. Furthermore, the memorandum made it clear that the Committee's
          review involved issues that were not related to research misconduct and that our office would not
          generally pursue. However, because the memorandum contained confidential information about
          the graduate student and a faculty member, we determined that it did not belong in the NSF
          proposal and should not be shared with any ad hoc reviewers and panelists. After redacting the
          memorandum from the NSF proposal, we contacted the University's Authorized Organizational
          Representative (AOR) to inform her that we redacted the confidential memorandum. Further, we
          confirmed with the AOR that the data sharing issue had been resolved.

          This case is closed and no further action will be taken.




\TSF OIG Form 2 (1 1/02)
